GIBBS &ASSOCIATESLAWFIRM,LLC
March 24, 2021
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington. D.C. 20543

Re:

No. 20-1174, Kim Lippard and Barry Lippard v. Larry Holleman
and Alan Hix

Dear Mr. Harris:
I represent Respondents Larry Holleman and Alan Hix in this case. Pursuant
to Rule 30.4 of the Rules of this Court, Respondents Holleman and Hix respectfully
request a 30-day extension of time within which to file their response in opposition to
the petition.
The petition for writ of certiorari was filed on February 22, 2021. The current
deadline for Respondents to oppose the petition is Mai·ch 29, 2020. If the request for
extension of time is granted, Respondents' brief in opposition would be due on April
28, 2021.
Respondents request this extension due to the press of other matters for the
attorneys handling the matter and scheduling difficulties with the printer.
Accordingly, Respondents respectfully request a 30·day extension of time until
and including April 28, 2021, in which to file their brief opposing the petition. Thank
you for your consideration
Respectfully submitted,
GIBBS & ASSOCIATES LAW FIRM, LLC

Isl Seth J. Kraus
Seth J. Kraus
Counsel for Respondents
cc: Julian H. Wright, Jr. (by email)

6398 Thornberry Court• Mason, OH 45040
P: 513.234.5545 • F: 888.500.4638 • www.gibbs-lawfirm.com

